Case: 19-12981

Date Filed: 04/01/2020

Page: 1 of 11

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12981
Non-Argument Calendar

D.C. Docket No. 6:18-cv-00759-RBD-GJK
ASHLEY L. DUNN,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(April 1,2020)
Before MARTIN, ROSENBAUM and MARCUS, Circuit Judges.
PER CURIAM:
Ashley Dunn, a Florida prisoner proceeding pro se, appeals from the district
court’s dismissal of her 28 U.S.C § 2254 petition as untimely. A certificate of
appealability was granted on the issue of whether the district court erred in

Case: 19-12981

Date Filed: 04/01/2020

Page: 2 of 11

concluding that Dunn’s § 2254 petition was not entitled to equitable tolling when
she claimed reliance on the state order holding her Fla. R. Crim. P. 3.850 motion in
abeyance. On appeal, she argues that her petition is entitled to tolling because she
reasonably relied on the state court’s holding of her Rule 3.850 motion in abeyance
as assurance that her federal time was being tolled. After careful review, we affirm.
We review a district court’s dismissal of a § 2254 petition as untimely de
novo. Pugh v. Smith, 465 F.3d 1295, 1298 (11th Cir. 2006). We also review de
novo a district court’s legal decision on the application of equitable tolling. San
Martin v. McNeil, 633 F.3d 1257, 1265 (11th Cir. 2011). However, we review for
clear error a district court’s determination of the relevant facts, including those
related to a petitioner’s diligence and whether extraordinary circumstances stood in
her way. Id. at 1265, 1269. Thus, “we must affirm a district court’s findings of fact
unless the record lacks substantial evidence to support them.” Id. at 1265 (quotations
omitted). “The burden of proving circumstances that justify the application of the
equitable tolling doctrine rests squarely on the petitioner.” Id. at 1268.
The relevant facts are these. In August 2013, Dunn was sentenced to life
without the possibility of parole for first-degree murder with a firearm (Count 1), in
violation of Fla. Stat. §§ 775.087 and 782.04(1), and thirty years’ imprisonment for
arson of a dwelling (Count 2), in violation of Fla. Stat. § 806.01(1 )(a). The Florida

2

Case: 19-12981

Date Filed: 04/01/2020

Page: 3 of 11

Fifth District Court of Appeal (“Fifth DC A”) affirmed her sentences and convictions
on August 19, 2014, and issued its mandate on September 12, 2014.
On September 10, 2015, Dunn filed a pro se Fla. R. Crim. P. 3.850 motion,
titled “Motion for Post-Conviction Relief with Special Request to Temporarily Hold
Proceedings in Abeyance,” in which she asserted, without any argument, that her
convictions were obtained in violation of the Sixth and Fourteenth Amendments.
She added that the incongruity between Florida’s two-year deadline for filing for
postconviction relief and the federal one-year deadline was illogical and prejudiced
her because she was entitled to an extra full year of investigation and preparation
under Florida law. She asked the state court to hold her motion in abeyance until
she filed an amended Rule 3.850 motion. The state court found that Dunn’s motion
did not present any claims for relief and did not toll Rule 3.850’s two-year statute of
limitations, but granted her request for an abeyance, noting that it would not rule on
the sufficiency of her postconviction motion “at this time” and that she must “file a
facially sufficient” motion by September 12, 2016 “to avoid a procedural bar.”
On September 7,2016, Dunn filed an amended Rule 3.850 motion, which was
subsequently amended for a second time. The state court ultimately denied the
motion on the merits on June 23, 2017. The Fifth DCA affirmed and issued its
mandate on April 30, 2018.

3

Case: 19-12981

Date Filed: 04/01/2020

Page: 4 of 11

On May 11, 2018, Dunn filed the instant pro se § 2254 petition, raising the
same 13 claims of ineffective assistance of counsel that she brought in her amended
Rule 3.850 motion. The state responded that Dunn’s § 2254 petition was untimely
because the one-year limitation period had expired on November 16, 2015, and her
September 2015 motion had not tolled her time. The district court denied Dunn’s
petition as untimely, agreeing with the state. This timely appeal followed.
Pursuant to the Antiterrorism and Effective Death Penalty Act (“AEDPA”), a
§ 2254 petition is governed by a one-year statute of limitations that begins to run on
the latest of four triggering events:
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable to
cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
28 U.S.C. § 2244(d)(l)(A)-(D). For purposes of § 2244(d)(1)(A), a state prisoner’s
conviction becomes final when the U.S. Supreme Court denies certiorari or issues a

4

Case: 19-12981

Date Filed: 04/01/2020

Page: 5 of 11

decision on the merits, or when the 90-day period in which to file a certiorari petition
expires. Bond v. Moore. 309 F.3d 770, 773-74 (11th Cir. 2002).
The one-year limitation period for filing a § 2254 petition is statutorily tolled
during the time in “which a properly filed application for State post-conviction or
other collateral review with respect to the pertinent judgment or claim is pending.”
28 U.S.C. § 2244(d)(2). To qualify as an “application for State post-conviction or
other collateral review,” a pleading actually must seek “review” by making a good
faith request for legal relief from the court. Sibley v. Culliver, 377 F.3d 1196, 1200
(11th Cir. 2004). Therefore, a state habeas petition must: (1) set forth the grounds
upon which it is based; (2) state the relief desired; (3) attack the relevant conviction
or sentence; and (4) “contain something vaguely approaching legitimate, relevant,
coherent legal analysis,” whether grounded in state or federal law.

Id.

An

application is pending, for purposes of § 2244(d)(2), between when it is properly
filed and when it has received a final resolution under the state court’s postconviction
procedures. Cramer v. Sec’v, Dep’t. of Corr., 461 F.3d 1380, 1383 (11th Cir. 2006).
Thus, time remains tolled until the state appellate court has issued its mandate or the
state supreme court denies review. Lawrence v. Florida, 549 U.S. 327, 332 (2007).
If a prisoner files an untimely § 2254 petition, the district court may still
review it if the petitioner demonstrates that she is entitled to equitable tolling by
showing that: (1) she has pursued her rights diligently, and (2) an extraordinary
5

Case: 19-12981

Date Filed: 04/01/2020

Page: 6 of 11

circumstance prevented her from filing a timely petition. Damren v. Florida, 776
F.3d 816, 821 (11th Cir. 2015). We’ve characterized the equitable-tolling standard
as a two-part test, stating that “equitable tolling is available only if a petitioner
establishes both extraordinary circumstances and due diligence.” Diaz v. Sec’v for
Dep’t of Corr., 362 F.3d 698, 702 (11th Cir. 2004) (emphasis omitted). Thus, courts
need not consider whether extraordinary circumstances exist if a petitioner’s delay
in filing the federal habeas petition exhibits a lack of due diligence. Id. at 702 & n.7.
“[E]quitable tolling is an extraordinary remedy [that] is limited to rare and
exceptional circumstances and typically applied sparingly.” Hunter v. Ferrell, 587
F.3d 1304, 1308 (11th Cir. 2009) (quotations omitted). “The diligence required for
equitable tolling purposes is ‘reasonable diligence,’ not ‘maximum feasible
diligence.’” San Martin. 633 F.3d at 1267. As to the “extraordinary circumstances”
requirement, the petitioner must show a causal connection between the alleged
extraordinary circumstances and the late filing of the petition. Id.
Our “precedent provides that federal habeas petitioners who rely upon the
timeliness of state post-conviction proceedings to satisfy the requirement of AEDPA
do so at their peril.” Johnson v. Fla. Dep’t of Corr.. 513 F.3d 1328, 1333 (11th Cir.
2008); see also Howell v. Crosby. 415 F.3d 1250, 1251-52 (11th Cir. 2005) (holding
that a federal habeas petitioner is not entitled to equitable tolling merely because the
state court granted an extension of time to file his state postconviction petitions). In
6

Case: 19-12981

Date Filed: 04/01/2020

Page: 7 of 11

Tinker v. Moore, we rejected a petitioner’s argument that § 2244(d) forced him to
make an “impermissible choice” between seeking Florida or federal habeas relief.
255 F.3d 1331,1334-35 (llthCir. 2001). We reasoned that he did not have to forego
his state remedy in order to avail himself of the federal remedy, but was only
required to “exercise [his state remedy] within one year of the date his judgment
became final and do so in a manner that leaves him sufficient time to timely file his
federal petition.” Id.
In Akins v. United States, a movant argued for equitable tolling of his 28
U.S.C. § 2255 motion because (1) he was subjected to lockdowns in jail for several
months, during which he could not access the law library, and (2) prison officials
misplaced his legal papers for a period of time. 204 F.3d 1086, 1089-90 (11th Cir.
2000). After noting that the movant had ample time (including four years before
Congress adopted the AEDPA one-year period of limitation) to file his motion when
these impediments did not exist, we declined to apply equitable tolling, determining
that he had “failed to demonstrate that the untimely filing of his motion was due to
extraordinary circumstances that were both beyond his control and unavoidable even
with diligence.” Id. at 1090.
Similarly, in Dodd v. United States, a movant argued that he was entitled to
equitable tolling of his § 2255 motion because he was transferred to a different
facility and detained there for over ten months without access to his legal papers.
7

Case: 19-12981

Date Filed: 04/01/2020

Page: 8 of 11

365 F.3d 1273, 1282-83 (11th Cir. 2004). We declined to apply equitable tolling,
determining that such circumstances were not extraordinary and the movant did not
establish due diligence because he had nearly five months with no impediments to
prepare his motion and presented no evidence that “he made any request to have his
papers delivered to him, attempted to contact counsel to assist him with timely filing
his motion, or otherwise undertook any action that would suggest reasonable
diligence under the circumstances.” Id. at 1283 (footnoted omitted).
On the other hand, we’ve recognized that equitable tolling may be warranted
when a government official has misled a petitioner. Spottsville v. Terry, 476 F.3d
1241, 1245 (11th Cir. 2007). In Spottsville, for example, the petitioner had followed
the incorrect filing instructions issued to him in a Georgia superior court order and
improperly filed the necessary documents to appeal the denial of his state habeas
petition in the superior court, rather than the Georgia Supreme Court. Id. at 1243.
The petitioner then filed a § 2254 petition, which the district court dismissed as
untimely because it found no statutory tolling on the ground that the appeal
documents were not “properly filed.” Id. We held that the petitioner was entitled to
equitable tolling for the time when his appeal documents were in the wrong court,
noting that (1) the petitioner had followed the state court order’s instructions “to the
letter” by filing his papers in the superior court; (2) “it [was] unreasonable to expect

8

Case: 19-12981

Date Filed: 04/01/2020

Page: 9 of 11

a pro se litigant to second-guess or disregard an instruction in a written order of a
court”; and (3) the petitioner had diligently filed his § 2254 petition. Id. at 1245-46.
Similarly, in Knight v. Schofield, a clerk of the Georgia Supreme Court had
assured a petitioner that he would be notified when the court ruled on his state habeas
petition. 292 F.3d 709, 710 (11th Cir. 2002). When the court ruled, it sent the notice
to the wrong person and failed to notify Knight, and the AEDPA’s one-year
limitation period lapsed while he was waiting. Id. We held that the petitioner was
entitled to equitable tolling until the date he actually received notice of the final
disposition of his state application because the clerk had assured him he would
receive notice of its decision and, when the court failed to provide notice, he
exercised diligence in inquiring about the status of his case. Id. at 711. We added
that, while equitable tolling applied in this case, each case turns on its own facts. IdAddressing the preliminary issue of statutory tolling first, we conclude that
the district court did not err in finding that Dunn’s § 2254 petition was not subject
to statutory tolling from September 2015. As the record reveals, regardless of
whether Dunn’s September 2015 motion was “properly filed,” the court did not err
in finding that it was not an “application” for state postconviction relief. Dunn’s
September 2015 motion merely asserted that her convictions were obtained in
violation of her Sixth and Fourth Amendment rights without containing any
argument, caselaw, or legal analysis to that point. Thus, rather than being a properly
9

Case: 19-12981

Date Filed: 04/01/2020

Page: 10 of 11

filed application for postconviction relief that needed to be amended, the motion was
insufficient to qualify as an “application” for state postconviction relief at all. See
Sibley, 377 F.3d at 1200. Accordingly, the district court properly found that Dunn’s
September 2015 motion did not statutorily toll the one-year limitation period under
§ 2244(d)(2). See 28 U.S.C. § 2244(d)(2).
Nor did the district court err in finding that Dunn was not entitled to equitable
tolling since she had failed to demonstrate extraordinary circumstances or due
diligence. As the record reflects, Dunn intentionally tried to toll her federal oneyear limitation period by filing a placeholder motion in order to take advantage of
Florida’s two-year limitation period, which is directly contrary to this Court’s
holding in Tinker, 255 F.3d at 1334-35. Thus, even if she was misled by the state
court’s order holding her motion in abeyance, her reliance on the timeliness of her
state postconviction proceedings to satisfy the AEDPA’s requirements was at her
own peril and, consequently, did not constitute an extraordinary circumstance
beyond her control that warrants equitable tolling. See Johnson, 513 F.3d at 1333;
Howell, 415 F.3d at 1251 52.
Moreover, the district court did not clearly err in finding that Dunn was not
diligent. Diaz, 362 F.3d at 702 & n.7. As in Dodd, Dunn has presented no evidence
that, before she asked the state court to hold her motion in abeyance, she attempted
to contact counsel to assist her with timely filing a Rule 3.850 motion or otherwise
10

Case: 19-12981

Date Filed: 04/01/2020

Page: 11 of 11

undertook any action to timely file the motion that would suggest reasonable
diligence.

Dodd, 365 F.3d at 1283.

While she later asserted in her federal

proceedings that there were not enough law clerks to assist her and that she had
limited access to the law library, we’ve previously found that even a complete lack
of access to a law library for several months was not enough to excuse a lack of
diligence. Akins, 204 F.3d at 1089-90. Therefore, Dunn has not met her burden of
showing that it was unavoidable even with due diligence. See San Martin, 633 F.3d
at 1268. Accordingly, her petition was not subject to tolling, and we affirm.
AFFIRMED.

11

Case: 19-12981

Date Filed: 04/01/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 .uscourts-gov

April 01, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal N umber: 19-12981 - AA
Case Style: Ashley Dunn v. Secretary, Department of Corn, et al
District Court Docket No: 6:18-cv-00759-RBD-GJK
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@cal 1 .uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call T. L. Searcy, AA at (404) 335-6180.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone#: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 1 of 10 PagelD 1826

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

ASHLEY L. DUNN,
Petitioner,
v.

Case No: 6:18-cv-759-Orl-37GJK

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,

Respondents.

ORDER
THIS CAUSE is before the Court on Ashley L. Dunn's Petition for Writ of Habeas
Corpus ("Petition," Doc. 1), filed pursuant to 28 U.S.C. § 2254. Respondents filed a
Response (Doc. 6), and Petitioner filed a Reply. (Doc. 8.)
Petitioner asserts thirteen (13) claims for relief in the Petition. For the reasons set
forth below, the Petition will be denied as untimely.
I.

Procedural History

Petitioner was charged with first degree murder with a firearm and arson of a
dwelling. (Doc. 7-2 at 105-06.) Following a jury trial, she was convicted as charged and
sentenced to life imprisonment without parole for first degree murder and to thirty years
for arson of a dwelling. (Doc. 7-3 at 264, 266-68, 335-38.) Petitioner appealed, and

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 2 of 10 PagelD 1827

Florida's Fifth District Court of Appeal ("Fifth DC A") affirmed the convictions and
sentences, per curiam. (Doc. 7-4 at 720); Dunn v. State, 146 So. 3d 1199 (Fla. 5th DCA 2014).
Petitioner then filed, on September 10, 2015, a motion pursuant to Rule 3.850,
Florida Rules of Criminal Procedure, titled "Motion for Post Conviction Relief with
Special Request to Temporarily Hold Proceedings in Abeyance." (Doc. 7-4 at 724-28.)
Noting that Petitioner had set forth no claims for relief, the state court granted the motion,
stating that "the Court will not issue a ruling on the sufficiency of the Motion for
Postconviction Relief at this time." (Doc. 7-5 at 3.) The Court ordered Petitioner to "file a
facially sufficient Motion for Postconviction Relief on or before September 12, 2016, to
avoid a procedural bar." (Id.) The Court further instructed that the two-year time period
for moving for post-conviction relief pursuant to Rule 3.850 was not tolled. (Id.)
On September 7, 2016, almost a year later, Petitioner filed an amended motion
pursuant to Rule 3.850, Fla. R. Crim. P. (Doc. 7-5 at 5-47.) The post-conviction court
struck one ground with leave to amend, and Petitioner subsequently amended the
stricken ground. (Doc. 7-5 at 52-53, 55-63.) The post-conviction court then denied
Petitioner's Rule 3.850 motion, and the Fifth DCA affirmed the denial, per curiam.
(Doc. 7-5 at 96-107,187.)
On May 11, 2018, Petitioner filed the instant Petition for federal habeas relief,
pursuant to 28 U.S.C. § 2254. (Doc. 1 at 27.) As the Court can resolve the entire petition
on the basis of the record, an evidentiary hearing is not warranted. See Schriro v.
Landrigan, 550 U.S. 465,474 (2007).

2

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 3 of 10 PagelD 1828

II.

Analysis

Pursuant to 28 U.S.C. § 2244:
(d)(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court. The limitation
period shall run from the latest of—
(A) the date on which the judgment became final by
the conclusion of direct review or the expiration of the
time for seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such State
action;
(C) the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the
right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral
review; or
(D) the date on which the factual predicate of the claim
or claims presented could have been discovered
through the exercise of due diligence.
(2) The time during which a properly filed application for
State post-conviction or other collateral review with respect
to the pertinent judgment or claim is pending shall not be
counted toward any period of limitation under this
subsection.
28 U.S.C § 2254(d)(l)-(2).
In the present case, the Fifth DCA affirmed Petitioner's conviction on
August 19,2014. Petitioner then had ninety days, or through November 17, 2014, to
petition the Supreme Court of the United States for a writ of certiorari. See Sup. Ct. R. 13.

3

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 4 of 10 PagelD 1829

See Bond v. Moore, 309 F.3d 770,774 (11th Cir. 2002) (holding that the one-year period of
limitation does not begin to run until the ninety-day period for filing a petition for
certiorari with the Supreme Court of the United States has expired).

Thus, under

Section 2244(d)(1)(A), the judgment of conviction became final on November 17, 2014,
and Petitioner had through November 17,2015, absent any tolling, to file a federal habeas
corpus petition.
Under Section 2244(d)(2), the limitations period tolls during the pendency of "a
properly filed application for State post-conviction or other collateral review."

The

question before the Courtis, therefore, whether Petitioner's "Motion for Post Conviction
Relief with Special Request to Temporarily Hold Proceedings in Abeyance" ("Motion")
constitutes a properly filed application for state post-conviction or other collateral review.
To answer that question, the Court must decide: "(1) whether [Petitioner's Motion] was
an'application for State post-conviction or other collateral review' at all; (2) if so, whether
it was 'filed', and (3) whether it was filed 'properly.' " Sibley v. Culliver, 377 F. 3d 1196,
1200 (11th Cir. 2004).
Although Petitioner contends that the Motion was properly filed, the Court does
not decide that issue because Petitioner's claim for timeliness fails, instead, at the first
step. The Eleventh Circuit has explained that:
the defining factor of an application for review is that it seeks
review.... "Giving the term 'application' its natural meaning,
a filing that purports to be an application for State post­
conviction or other collateral review with respect to the
pertinent judgment or claim must set forth the grounds upon
which it is based, and must state the relief desired; it must
attack collaterally the relevant conviction or sentence."
4

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 5 of 10 PagelD 1830

Sibley, 377 F.3d at 1200 (quoting Voravongsa v. Wall, 349 F.3d 1, 6 (1st Cir. 2003)).
A document filed with a state court cannot be viewed as an "application for State post­
conviction or other collateral review" if it "does not even attempt to make a good faith
effort to offer at least a potentially plausible or coherent basis for granting [the petitioner]
relief." Id.
Petitioner's Motion was titled as a motion for post-conviction relief. She further
stated in the Motion that:
By her motion for Florida Rules of Criminal Procedure, Rule
3.850, Ashley Dunn asserts that her conviction and sentence
were obtained in violation of the 6th and 14th Amendment of
the United States Constitution and the corresponding
provision of the State of Florida Constitution for the reasons
set forth below.
(Doc. 7-4 at 726.) However, the remainder of the Motion failed to contain any facts or
analysis that could reasonably be construed to attack her convictions or sentences. At
most, Petitioner's Motion vaguely implied that she may eventually amend the motion to
allege unspecified constitutional violations.
Under these circumstances, the Motion is not an "application for State post­
conviction or other collateral review" within the meaning of Section 2254(d)(2). See e.g.,
Sibley, 377 F.3d at 1200 ("[A] document captioned 'Application for Post-Conviction or
Other Relief,' which contained nothing more than the phrase 'Let me out!/ would not
trigger § 2244(d)(2)'s tolling provisions. Instead, the document must contain something
vaguely approaching legitimate, relevant, coherent legal analysis.

5

. . .

[W]here a

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 6 of 10 PagelD 1831

petitioner fails to include any meaningful federal or state legal analysis, we need not
consider [the] filing an application for state post-conviction review.").
Therefore, the tolling provision of Section 2244(d)(2) does not apply to Petitioner's
September 10,2015 Motion. Although Petitioner subsequently filed an "amended" Rule
3.850 motion on September 7, 2016, that motion also did not toll the Section 2254
limitations period. Although it contained thirteen grounds for relief, it was filed after the
November 17,2015 deadline. See Sibley, 377 F.3d at 1204 (" [Q]nce a deadline has expired,
there is nothing left to toll. . . . Petitioner may not attempt to resurrect a terminated
statute of limitations by subsequently filing documents that purport to 'relate back' to
previously submitted documents that were, in themselves, insufficient to toll the
statute.").
In her Reply, Petitioner argues that she correctly relied on the post-conviction
court's order granting her request to hold the proceedings in abeyance, that the
correctional institution in which she was housed did not have enough law clerks available
to efficiently provide her assistance, and that she did not intend to circumvent the
prescribed time limitations. (Doc. 8 at2M.) To theextent this argument may be construed
as one in support of equitable tolling, it does not entitle Petitioner to relief.
The Supreme Court has held that "that § 2244(d) is subject to equitable tolling in
appropriate cases." Holland v. Florida, 560 U.S. 631, 645 (2010). "Equitable tolling may
apply 'when a movant untimely files because of extraordinary circumstances that are
both beyond his control and unavoidable even with diligence." Johnson v. Fla. Dep't of
Corr., 513 F.3d 1328,1332 (11th Cir. 2008) (quoting Arthur v. Allen, 452 F.3d 1234,1252
6

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 7 of 10 PagelD 1832

(11th Cir. 2006)) (citing Helton v. Sec'y for the Dep't of Corr., 259 F.3d 1310, 1313
(11th Cir. 2001); Tinker v. Moore, 255 F.3d 1331,1333 (11th Cir. 2001)).
Petitioner has not demonstrated extraordinary circumstances or due diligence
here.

See e.g., Lumadue v. Sec’y, Dep’t of Corr., No.

6:16-cv-1574-Orl-37TBS,

2017 WL 4271706, at *4 (M.D. Fla. Sept. 26,2017) (citingMiller v. Florida, 307 F. App'x 366,
368 (11th Cir. 2009); Paulcin v. McDonough, 259 F. App'x 211,213 (11th Cir. 2007); Dodd v.
United States, 365 F.3d 1273,1282-83 (11th Cir. 2004); Akins v. United States, 204 F.3d 1086
(11th Cir. 2000)) ("Petitioner's summary allegations regarding the incompetence of a
prison law clerk and her 'extreme difficulties' with the prison law library simply do not
rise to the level of extraordinary circumstances beyond her control which warrant
equitable tolling of the one-year limitations period."); Johnson, 513 F.3d at 1333 (citing
Howell v. Crosby, 415 F.3d 1250,1251-52 (11th Cir. 2005); Tinker v. Moore, 255 F.3d 1331,
1334-35 (11th Cir. 2001)) (" [0]ur precedent provides that federal habeas petitioners who
rely upon the timeliness of state post-conviction court proceedings to satisfy the
requirements of AEDPA do so at their peril.").
The Court notes that, although Petitioner claims her intent was not to circumvent
the federal limitations period, her Motion demonstrated to the contrary. After recounting
the procedural history of the case, and in place of any argument related to specific
grounds for collateral relief, Petitioner argued:

Pursuant to 28 U.S.C. § 2254, Dunn has only a year
within which to seek review of her case in federal distrcourt,
which time limitation is tolled during the pendency of state
court proceedings, the latter of which are conditions
7

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 8 of 10 PagelD 1833

precedent to ripeness of any federal claim. That is to say,
under the principle of exhaustion of available State court
remedies a movant in federal court must first seek relief in the
State courts, even though the "deadline" for collateral review
in the federal court system expires first, absent applicable
tolling provisions.
The practical effect of such an illogical and
incongruous litigation rubric is to effectively reduce the time
limitation for a timely post conviction motion under Florida
Rules of Criminal Procedure [Rule] 3.850 by half. Under
Florida Law, Dunn is actually entitled to another full year in
order to investigate and prepare her request for collateral
review of judgment and sentence. Dunn should not be forced
to choose between her federal and State court rights to pursue
collateral review and relief from a sentence of life
imprisonment.
(Doc. 7-4 at 726-27.)

Moreover, Petitioner's "impermissible choice" argument, as

expressed in the Motion, has long been foreclosed in this circuit. See Tinker,
255 F.3d at 1334-35 (rejectingthepetitioner's argument thathe was "force[d]... to choose
between exercising his right to meaningful access to the state courts which provide a twoyear limitation period and the right to petition for federal habeas relief.").
Any of Petitioner's allegations that attempt to excuse her failure to file a petition
within the one-year period of limitation that are not specifically addressed herein are
without merit.
III.

Certificate of Appealability

This Court should grant an application for certificate of appealability only if
Petitioner makes "a substantial showing of the denial of a constitutional right."
28U.S.C. § 2253(c)(2). To make such a showing, "the petitioner must demonstrate that
reasonable jurists would find the district court's assessment of the constitutional claims
8

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 9 of 10 PagelD 1834

debatable or wrong." Slack v. McDaniel, 529 U.S. 473,484 (2000); see also Lamarca v. Sec'y
Dep't ofCorr., 568 F.3d 929, 934 (11th Cir. 2009). However, a prisoner need not show that
the appeal will succeed. Miller-El v. Cockrell, 537 U.S. 322,337 (2003).
Petitioner has not demonstrated that reasonable jurists would find the district
court's assessment of the constitutional claims and procedural rulings debatable or
wrong. Further, Petitioner has failed to make a substantial showing of the denial of a
constitutional right. Thus, the Court will deny Petitioner a certificate of appealability.
IV.

Conclusion

Accordingly, it is ORDERED and ADJUDGED that:
1.

The Petition for Writ of Habeas Corpus (Doc. 1) is DENIED, and this case
is DISMISSED WITH PREJUDICE;

2.

Petitioner is DENIED a certificate of appealability; and

3.

The Clerk of Court shall enter judgment in favor of Respondents and close
this case.

DONE and ORDERED in Orlando, Florida on June 28,2019.

Copies furnished to:
Counsel of Record
Unrepresented Party
9

Case 6:18-cv-00759-RBD-GJK Document 9 Filed 07/01/19 Page 10 of 10 PagelD 1835

OrlP-4 6/24

10

Case 6:18-cv-00759-RBD-GJK Document 10 Filed 07/02/19 Page 1 of 2 PagelD 1836

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
ASHLEY L. DUNN,
Petitioner,
v.

Case No: 6:18-cv-759-Orl-37GJK

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
The Petition for Writ of Habeas Corpus is DENIED, and this case is DISMISSED WITH
PREJUDICE. Judgment is entered in favor of Respondents.
Date: July 2, 2019
ELIZABETH M. WARREN,
CLERK
s/L. W., Deputy Clerk

